HHS/OIG, Audit - "Philadelphia Countys Title IV-E Claims for Children
for Whom the Contractual Per Diem Rate for Foster Care Services Exceeded $300
From October 1997 Through September 2002," (A-03-06-00564)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Philadelphia
Countys Title IV-E Claims for Children for Whom the Contractual Per Diem Rate
for Foster Care Services Exceeded $300 From October 1997 Through September 2002," (A-03-06-00564)
December 13, 2007
Complete
Text of Report is available in PDF format (784 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Pennsylvania Department of Public Welfare (the State
agency) did not always claim Title IV-E maintenance and associated
administrative costs for Philadelphia County in accordance with Federal
requirements.  Of the 100 maintenance claims sampled, which were based on per
diem rates exceeding $300, 45 were unallowable.  Based on the sample results, we
estimated that the State agency improperly claimed at least $11,693,989 of the
total $33,282,491 (Federal share) claimed for Title IV-E reimbursement on behalf
of Philadelphia County contractors that received per diem rates exceeding $300.
We were unable to determine the allowability of the remaining $21,588,502
claimed by the State agency because the contractors per diem rates did not
distinguish between services that were eligible or ineligible for Title IV-E
reimbursement.
We recommended that the State agency (1) refund to the
Federal Government $11,693,989; (2) work with ACF to determine the allowability
of the remaining $21,588,502 claimed; (3) work with ACF to identify and resolve
any unallowable claims made after September 2002 and refund the appropriate
amount; (4) discontinue claiming Title IV-E reimbursement for unlicensed
facilities and ineligible children and services; and (5) direct Philadelphia
County to develop rate-setting procedures that separately identify maintenance
and other costs, including related administrative costs, so that claims are
readily allocable to the appropriate Federal, State, and local funding sources.
The State agency disagreed with all of the recommendations.